United States Department of Agriculture
Office of Inspector General




U.S. Department of Agriculture's Office of
Homeland Security and Emergency
Coordination - Classification Management




                                          Audit Report 61701-0001-32
                                          September 2013
                                             U.S. Department of Agriculture’s
                                              Office of Homeland Security and
                                     Emergency Coordination - Classification Management

                                                      Audit Report 61701-0001-32
What Were OIG’s
Objectives
To assess whether applicable
classification policies,
procedures, rules, and
regulations have been adopted,     OIG reviewed USDA’s process for classified
followed, and effectively
administered within USDA;          documents in order to determine if PDSD is
and identify whether they may      adequately managing USDA’s classified
be contributing to persistent      national security information program, as
misclassification of material.
This audit was required by         required by the Reducing Over-
Public Law 111-258,                Classification Act.
Reducing Over-Classification
Act.
                                   What OIG Found
What OIG Reviewed
                                   This is the first of two reports required by the Reducing Over-
Our audit examined USDA            Classification Act to determine the Department of Agriculture’s
guidance and 31 documents          (USDA) compliance with Federal regulations. The Act was designed
classified by USDA at the          to prevent information from being over-classified and over-
“Secret” and “Top-Secret”          compartmentalized, and to promote information sharing, as prescribed
level.                             by Federal guidelines.
What OIG Recommends
                                   The Personnel and Document Security Division (PDSD) focuses on
USDA should ensure records         safeguarding national security information within USDA. We found
management, Departmental           that PDSD lacks proper guidance for eight key areas relating to
regulations, procedures, and       classification management, and does not have a records management
the classification guide reflect   system that would identify documents that need to be declassified or
Federal classification             reviewed for continued national security. We also found that USDA’s
requirements, and review all       classification guide was missing required elements needed for proper
USDA classified documents to       derivative classification decisions. PDSD also needs to improve its
correct improper markings.         reviews of classified markings on documents. Additionally, PDSD
The original classification        does not always obtain and maintain adequate statistics related to the
authority should direct all        security classification program and USDA does not ensure that its
subordinate agencies to report     subordinate agencies are conducting self-inspections in accordance
self-inspections and program       with regulations and procedures. Finally, PDSD’s classification
statistics. PDSD should            management training content and documentation need to be improved,
develop, record, and track all     particularly in providing required information to individuals with
training that meets Federal        security clearances. As a result, there is a greater potential for over-
requirements.                      classifying or improperly releasing national security information.

                                   OIG accepted management decision on 8 of the 17 recommendations;
                                   however, further action from the agency is needed before
                                   management decision can be reached for the other recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250
DATE:          September 27, 2013

AUDIT
NUMBER:        61701-0001-32

TO:            Todd Repass, Jr.
               Director
               Office of Homeland Security and Emergency Coordination

ATTN:          Jennifer Wendel
               Office of Homeland Security and Emergency Coordination
               Audit Liaison

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Classification Management


This report presents the results of the subject audit. Your written response to the official draft
report, dated September 19, 2013, is included in its entirety at the end of the report. Excerpts
from your response and the Office of Inspector General (OIG) position are incorporated in the
relevant Findings and Recommendations sections of the report. Based on the written response,
we accept management decision on Recommendations 5, 7, 8, 9, 10, 13, 14, and 15 in the report.
However, management decision has not been reached for Recommendations 1, 2, 3, 4, 6, 11, 12,
16, and 17. Management decisions for the recommendations can be reached once you have
provided the additional information outlined in the report sections’ OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

This report contains publically available information and will be posted in its entirety to our
website (http://www.usda.gov/oig) in the near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Classified Management......................................................................... 5
Finding 1: Effectiveness of Security Program Management .............................. 5
         Recommendation 1 to the Personnel and Document Security Division
         (PDSD) ..........................................................................................................10
         Recommendation 2 to PDSD ......................................................................11
         Recommendations 3 to the Senior Agency Official (SAO) ......................11
Finding 2: Effectiveness of Original Classification Authorities ....................... 12
         Recommendation 4 to the Original Classification Authorities (OCA) ...14
         Recommendation 5 to PDSD ......................................................................14
Finding 3: Effectiveness of Original Classification Decisions and
Dissemination Control Marking Decisions ......................................................... 15
         Recommendation 6 to the OCA..................................................................16
         Recommendation 7 to PDSD ......................................................................16
Finding 4: Effectiveness of Derivative Classification Decisions and
Dissemination Control Marking Decisions ......................................................... 17
         Recommendation 8 to PDSD ......................................................................19
         Recommendation 9 to PDSD ......................................................................19
Finding 5: Effectiveness of Security Self-Inspection Program ......................... 20
         Recommendation 10 to the SAO ................................................................22
         Recommendation 11 to the SAO ................................................................22
         Recommendation 12 to the OCA................................................................23
Finding 6: Effectiveness of Security Reporting.................................................. 24
         Recommendation 13 to the SAO ................................................................25
         Recommendation 14 to PDSD ....................................................................26
Finding 7: Effectiveness of Security Education and Training .......................... 27
         Recommendation 15 to PDSD ....................................................................29
         Recommendation 16 to PDSD ....................................................................29
         Recommendation 17 to PDSD ....................................................................30
Scope and Methodology ........................................................................................ 31
Abbreviations ........................................................................................................ 33
Exhibit A: Effectiveness of Classification Management Policies and Control
Marking Guidelines .............................................................................................. 34
Agency's Response ................................................................................................ 39
Background and Objectives 
Background
Public Law 111-258, Reducing Over-Classification Act, section 6(b), requires the Office of
Inspector General (OIG) of each Department or agency with an officer or employee who is
authorized to make original classifications, in consultation with the Information Security
Oversight Office (ISOO),1 to carry out at least two evaluations before September 30, 2016. The
initial evaluation shall be completed by September 30, 2013. The second required evaluation
should review progress since the first review and be completed no later than September 30, 2016.

Executive orders since 1940 have directed Governmentwide classification standards and
procedures. On December 29, 2009, President Obama signed Executive Order (E.O.) 13526,
Classified National Security Information, which establishes the current principles, policies, and
procedures for classification. The E.O. prescribes a uniform system for classifying,
safeguarding, and declassifying national security information. E.O. 13526 also states that this
nation’s progress depends on the sharing of information, both within the Government and with
the American people. Accordingly, protecting information critical to national security and
demonstrating a commitment to open Government through accurate and accountable application
of classification standards and routine, secure, and effective declassification are equally
important priorities.

Pursuant to this order, classified information that is determined to require protection against
unauthorized disclosure to prevent damage to national security must be marked appropriately to
indicate its classified status. The three U.S. classification levels, and correlating expected
damage to U.S. security if the information is disclosed inappropriately, are:

    ·   Top Secret – shall be applied to information, the unauthorized disclosure of which
        reasonably could be expected to cause exceptionally grave damage to the national
        security, which the original classification authority is able to identify or describe.
    ·   Secret – shall be applied to information, the unauthorized disclosure of which reasonably
        could be expected to cause serious damage to the national security, which the original
        classification authority is able to identify or describe.
    ·   Confidential – shall be applied to information, the unauthorized disclosure of which
        reasonably could be expected to cause damage to the national security, which the original
        classification authority is able to identify or describe.

Except as otherwise provided by statute, no other terms shall be used to identify U.S. classified
information. If significant doubt exists about the appropriate level of classification, information
shall be classified at the lower level.



1
 ISOO is responsible to the President for policy and oversight of the Governmentwide security classification system
and the National Industrial Security Program. ISOO is a component of the National Archives and Records
Administration and receives policy and program guidance from the National Security Council.

                                                                        AUDIT REPORT 61701-0001-32               1
Information may be originally classified only by original classification authorities (OCA). These
are individuals authorized in writing, either by the President, the Vice President, or agency heads
or other officials designated by the President, to initially classify information.

On December 29, 2009, the President designated the Secretary of Agriculture to classify
information originally as “Secret.” OCAs must receive training on proper classification prior to
originally classifying information and at least once per calendar year after that. To make an
original classification decision, an OCA must determine if the information meets the following
standards for classification:

    ·    The information is owned, controlled, or produced by or for the U.S. Government;
    ·    The information falls within one or more of the eight categories (reasons for
         classification) of information described in section 1.4 of E.O. 13526; and
    ·    The unauthorized disclosure of the information reasonably could be expected to result in
         damage to the national security, which the OCA is able to identify or describe.

By definition, original classification precedes all other aspects of the security classification
system, including derivative classification,2 safeguarding, and declassification. The term “over-
classification” is not defined in national policy. E.O. 13526 does define “classification” and
“declassification.” During the course of our fieldwork and in this report, we have used a
working definition of “over-classification,” which was supplied by ISOO: the designation of
information as classified, when the information does not meet one or more of the standards for
classification under section 1.1 of E.O. 13526. If significant doubt exists about the need to
classify information, it should not be classified.

The Office of Homeland Security and Emergency Coordination (OHSEC), formed in 2010, is
one of 13 offices that fall under Departmental Management within the U.S. Department of
Agriculture (USDA). OHSEC provides Departmental leadership to USDA on Governmentwide
initiatives in various areas, including the safeguarding of classified national security information
within USDA and managing security clearances. Within OHSEC there are six divisions,
including the Personnel and Document Security Division (PDSD).

PDSD focuses on safeguarding national security information within USDA. To accomplish this,
PDSD’s Information Security Branch is responsible for establishing and implementing USDA’s
information security program. The Information Security Branch manages the document security
classification function, promulgates policies and regulations concerning the safeguarding of
national security information, provides technical support on information security matters to
USDA agencies and staff offices, and conducts information security training.

The USDA Classified National Security Information Program Regulation (Departmental
Regulation (DR) 3440-001) was issued on October 5, 2011, to prescribe Departmental roles and
responsibilities for the classification, declassification, and safeguarding of classified national


2
  Derivative classification means the incorporating, paraphrasing, restating, or generating in new form information
that is already classified, and marking the newly developed material consistent with the classification markings that
apply to the source information.

2       AUDIT REPORT 61701-0001-32
security information. This regulation designates the Director of OHSEC as the Senior Agency
Official (SAO), or primary liaison between USDA and ISOO, responsible for identifying
necessary resources to manage the program and providing program oversight.

Similarly, the USDA Classified National Security Program Manual (Departmental Manual (DM)
3440-001), issued on May 1, 2008, establishes the policies and procedures that govern the USDA
information security program, which includes uniform requirements and guidance for
classifying, safeguarding, declassifying, and destroying classified national security information,
whether originated by or released to USDA.

All personnel with an active security clearance can perform derivative classification. All
personnel who apply derivative classification markings must receive training on the proper
application principles of E.O. 13526 prior to derivatively classifying information and at least
once every 2 years thereafter. Information may be derivatively classified from a source
document or documents, or through the use of a classification guide.

Federal Government organizations that create or hold classified information are responsible for
its proper management. Classification management includes developing classification guides
that provide a set of instructions from an OCA to derivative classifiers that identify elements of
information regarding a specific subject that must be classified, and the level and duration of
classification for each element. One of the most effective ways to protect classified information
is through applying standard classification markings and dissemination control markings.
Effective program management also includes comprehensive mandatory training for classifiers
and a robust self-inspection program.

One of the significant changes to the classification program, pursuant to the issuance of
E.O. 13526, is that classified information shall be made accessible to the maximum extent
possible to authorized holders. An additional significant change was that classified information
originating in one agency may be disseminated to another agency or U.S. entity by any agency to
which it has been made available without the consent of the originating agency, as long as the
recipients meet the criteria for authorized holders, unless the originating agency has obtained
approval by ISOO or the Director of National Intelligence, as applicable, to restrict
dissemination.

In June 2006,3 the Government Accountability Office conducted an evaluation of one agency’s
information security program and found that a lack of oversight and inconsistent implementation
of the agency’s information security program are increasing the risk of misclassification.
Misclassification of national security information impedes effective information sharing, can
provide adversaries with information to harm the U.S. and its allies, and incurs millions of
dollars in avoidable administrative costs. The Government Accountability Office identified
weaknesses in the areas of classification management training, self-inspections, and security
classification guide management.



3
 Managing Sensitive Information: DOD Can More Effectively Reduce the Risk of Classification Errors, GAO-06-
706, June 2006.

                                                                     AUDIT REPORT 61701-0001-32               3
Objectives
Public Law 111-258, section 6(b), requires the Office of Inspector General (OIG) of each
Department or agency with an officer or employee who is authorized to make original
classifications, in consultation with ISOO to:

         assess whether applicable classification policies, procedures, rules, and regulations have
         been adopted, followed, and effectively administered; and
    ·    identify policies, procedures, rules, regulations, or management practices that may be
         contributing to persistent misclassification.




4       AUDIT REPORT 61701-0001-32
Section 1: Classified Management 

Finding 1: Effectiveness of Security Program Management
USDA needs improvement in its management of the classified national security information
program. PDSD does not have a system of records management that facilitates the
declassification of documents, pursuant to the provisions of automatic declassification, nor has it
updated the Departmental manual (DM 3440-001) to reflect the new requirements of E.O. 13526.
This occurred because PDSD considered a records management system to be the same as an
inventory of classified information, which is not required. PDSD also has not prioritized
updating the Departmental manual. Without a records management system and current policies,
there is a potential that USDA documents could be over-classified, documents may be
maintained beyond the declassification date (preventing information sharing), and national
security information could be released.

General Program Management

General program management refers to the responsibilities of Departments and agencies
implementing the program under E.O. 13526.4 These include the responsibilities of the agency
head to demonstrate personal commitment to the program, commit necessary resources to ensure
its effective implementation, and to appoint a Senior Agency Official (SAO) to direct and
administer the program. The SAO is responsible for overseeing the program established under
E.O. 13526, issuing implementing regulations, establishing and maintaining security education
and training programs, and establishing and maintaining an ongoing self-inspection program.

We reviewed the classification management program and the use of dissemination control
markings to ensure that necessary resources have been dedicated for the effective
implementation of the program, that agency records systems are designed and maintained to
optimize the appropriate sharing and safeguarding of classified information, and that an SAO has
been designated to direct and administer the program.

According to DR 3080-001, a records management system shall enable the identification,
preservation, and retirement of permanent records.5 Additionally, E.O. 13526 states “to the
extent practicable, agencies shall adopt a system of records management that will facilitate the
public release of documents at the time such documents are declassified pursuant to the
provisions for automatic declassification.”6 However, we identified that 8 of the 31 documents
we reviewed were being maintained after the declassification date, without having been reviewed
for an extension or exemptions, as outlined in the Mandatory Review for Declassification.7
Therefore, the information was not being reviewed to determine if it could be declassified and
shared, which in turn has the potential to hinder information sharing.


4
  E.O. 13526, December 29, 2009, was published in the Federal Register (FR) volume 75, number 2, page 707,
January 5, 2010.
5
  Records Management (DR 3080-001), April 11, 2007.
6
  75 FR 707, section 3.2(e), January 5, 2010.
7
  Title 32, Code of Federal Regulations (CFR), part 2001.33, July 1, 2010 Edition.

                                                                      AUDIT REPORT 61701-0001-32             5
PDSD stated that it did not maintain an inventory of classified documents below the top-secret
level because it was not required. While we acknowledge that a complete inventory may not be
required, a records management system is required.

Even though an SAO has been assigned to administer the classified national information
program, PDSD also needs to dedicate the resources to develop and administer a records
management system. Doing so would enable PDSD to identify those documents that need to be
reviewed for continued national security or declassified, and reduce the risk of over-
classification or a lack of sharing of information.

On August 13, 2013, PDSD staff provided documentation showing that a review of one of the
USDA agencies’ documents being maintained has been initiated.

Effectiveness of Classification Management Policies and Control Marking Guidelines

Agencies are required to promulgate regulations to implement their classified national security
information programs in accordance with E.O. 13526 and 32 Code of Federal Regulations (CFR)
2001. We reviewed Departmental Regulation (DR) 3440-001 and Departmental
Manual (DM) 3440-001 to determine whether the eight key areas—original classification
authority, general program management responsibilities, original classification, derivative
classification, declassification, self-inspections, reporting and definitions, and security education
and training—were covered and adopted in accordance with the E.O. and the CFR.8

Based on our review, we noted that policies had not been adopted in accordance with E.O. 13526
and 32 CFR 2001 for all eight key areas. (See exhibit A for areas where policies need to be
addressed.) In addition to the two key areas noted9 (general program management and
classification challenges), we found issues with the remaining six key areas:

    ·    Classification authority: The E.O. provides that the Secretary of Agriculture is
         designated as the authority to originally classify information to the Secret level and
         specifically prohibits the Secretary of Agriculture from delegating the authority granted
         in the order.10 However, both the Departmental regulation and manual allow the
         Secretary of Agriculture to re-delegate the authority to the “Deputy Secretary.”11

    ·    Original classification: The E.O. states “whenever practicable, use a classified
         addendum.” Rather than classifying the entire document, classified addenda would allow


8
  We used A Standard User’s Guide for Inspectors General Conducting Evaluations Under Public Law 111-258,
Appendix A - Agency Implementing Regulation Assessment Tool, which was provided by the Council of the
Inspectors General on Integrity and Efficiency to conduct this review. Appendix A focused on eight key areas to
determine if applicable classification policies, procedures, rules, and regulations have been adopted in accordance
with E.O. 13526 and 32 CFR 2001.
9
  General Program Management and Classification Challenges (Declassification) are covered in separate sections of
this finding.
10
   75 FR 735-736, January 5, 2010.
11
   DR 3440-001 section 5.a., October 5, 2011, and DM 3440-001, chapter 2.1, May 1, 2008.

6       AUDIT REPORT 61701-0001-32
         for “dissemination at the lowest level of classification possible or unclassified form.”12
         However, neither the Departmental regulation nor the manual addresses the use of a
         classified addendum, thereby potentially limiting the information sharing of non-national
         secure information.

     ·   Derivative classification: According to the E.O. and the CFR, agencies must identify the
         person applying the derivative classification markings by name and position, or by
         personal identifier.13 Because the Departmental manual was last updated in May 2008,
         approximately 2 years prior to the E.O., it does not address the requirements of
         identifying the derivative classifier by name and position, nor does it refer to the
         appropriate criteria.

     ·   Self-inspections: The E.O. and CFR require essential elements of coverage and external
         reporting of self-inspections.14 Neither the Departmental regulation nor the manual
         addresses coverage and external reporting when conducting self-inspections.

     ·   Reporting and definitions: Agencies are required to report to the Director of ISOO any
         classified information that has been declassified without prior authority, as well as
         information security violations that: are reported to the Legislative branch; may attract
         public attention; involve large amounts of information; or reveal a systemic weakness in
         classification or safeguarding of classified information.15,16 However, USDA does not
         have a policy that requires PDSD to report all classified information that has been
         declassified without prior authority or information security violations.

     ·   Security education and training: The E.O. requires that original and derivative
         classification authority be “suspended by the agency head or the senior agency official
         designated” until training has been taken.17 Neither the Departmental regulation nor the
         manual provides for suspension of either the original or derivative classification authority
         (See Finding 7).

In general, PDSD staff agree that the Departmental regulation and manual need to be updated.
When we asked why policies had not been updated, staff explained that they were working on a
Departmental manual, which they hoped to complete by the end of fiscal year (FY) 2013. They
added that it may take time for the Departmental manual to receive final approval, as the last
Departmental regulation, which had minimal changes, took more than a year to update.18 While

12
   75 FR 707, section 1.6(g), January 5, 2010.
13
   75 FR 707, section 2.1(b)(1), January 5, 2010, and 32 CFR 2001.22(b), July 1, 2010 Edition.
14
   75 FR 707, section 5.4(d)(4), January 5, 2010, and 32 CFR 2001.60(e) and (f), July 1, 2010 Edition.
15
   A violation is defined as “any knowing, willful, or negligent action (1) that could reasonably be expected to result
in an unauthorized disclosure of classified information; (2) to classify or continue the classification of information
contrary to the requirements of this order or its implementing directives; or (3) to create or continue a special access
program contrary to the requirements of this order.”
16
   75 FR 707, section 5.5(e), January 5, 2010, and 32 CFR 2001.91(a) and (d), July 1, 2010 Edition.
17
   75 FR 707, section 1.3(d) and 2.1(d), January 5, 2010, and 32 CFR 2001.71(c)(3) and (d)(3), July 1, 2010 Edition.
18
   The changes to the last Departmental regulation primarily added training for the OCA and derivative classifiers,
and updated references to E.O. 13526 and the implementing regulation (32 CFR 2001) in various places in the
document.

                                                                            AUDIT REPORT 61701-0001-32                7
this revision is more substantial, and likely would take more time, PDSD only has two
individuals in the Information Security Branch to rewrite the manual, in addition to their other
normal duties. Because this revision is an ambitious undertaking, OIG recommends that PDSD
dedicate the necessary resources to meet its targeted deadline. Subsequently, staff indicated that
USDA is making every effort possible to prioritize available resources in a manner that reflects
the Department’s needs and the protection of classified information.

Performance Evaluations

According to E.O 13526, properly designating and managing classified information must be a
critical element of performance evaluations of personnel whose duties significantly involve
handling classified information (such as OCAs and security professionals).

We found that the Departmental regulation (DR 3440-001) did not include the specific language
regarding critical elements on performance evaluations needed to comply with E.O. 13526.
Specifically, while Departmental regulation requires that performance standards include
language that requires all employees who routinely handle classified information to properly
protect classified information, the regulation does not require such activity as a critical element
or item on the performance evaluation.19

However, when we reviewed the Employee Performance Plan and Appraisal Records of
employees whose duties involved significant handling of classified information, we found that
they did contain a critical element on classified material handling that met the requirements of
the E.O. Even though this was included on the evaluations, the regulation (DR 3440-001) should
be updated to address the requirement of a critical element.

Classification Challenges (Declassification)

E.O. 13526 states that authorized holders of information who, in good faith, believe that its
classification status is improper are encouraged and expected to challenge the classification
status of the information. An agency head or SAO shall establish procedures allowing them to
do so. These procedures shall ensure that: individuals are not subject to retribution for bringing
such actions; an opportunity is provided for review by an impartial official or panel; and
individuals are advised of their right to appeal agency decisions to the Interagency Security
Classification Appeals Panel (ISCAP).20

Additionally, Federal regulations require that if the agency does not respond within 120 days, the
challenger has the right to forward the challenge to ISCAP. The challenger may also forward the
challenge to the panel if the agency has not responded to an internal appeal within 90 days of the
agency’s receipt of the appeal. Agency responses to those challenges it denies shall include the
challenger’s appeal rights to the panel.21



19
   DR 3440-001, section 5c(6), October 5, 2011.
20
   75 FR 707, section 1.8(b), January 5, 2010.
21
   32 CFR 2001.14(b)(3), July 1, 2010 Edition.

8     AUDIT REPORT 61701-0001-32
We determined the Departmental regulation and manual do not adequately advise individuals of
their rights to appeal to ISCAP or establish procedures to properly process requests to ISCAP for
exemptions to automatic declassification. The regulation and manual also do not include the
timeframes for challenges to be forwarded to ISCAP. PDSD officials did not agree with this
conclusion because the Departmental manual requires classification challenges to be resolved to
the extent possible within 30 calendar days of receipt of a challenge. However, we believe that
the Departmental manual should be updated so that classifiers are aware of the appeals process
and timeframe requirements for sending matters to ISCAP. Without a complete policy in place
to establish these processes and the individual’s right to appeal, individuals will not have written
guidance to challenge the classification status of the information and may not know about their
right to appeal to ISCAP (See Finding 7 for training deficiency regarding classification
challenges).

Incentives for Accurate Classification

In making cash awards under chapter 45 of title 5, United States Code, the President or head of
an executive agency with an officer or employee who is authorized to make original or derivative
classification decisions, may consider such officer’s or employee’s consistent and proper
classification of information.22

USDA does not offer incentives for accurate classification of information. USDA’s OCA
responded that “when dealing with classified information ‘incentives’ are not used to encourage
classification or declassification.” The classification of information by the OCA “requires an in-
depth review,” and “[c]lassification management is addressed through user training and
awareness.”

Sanctions

E.O. 13526 provides that officers and employees of the U.S. Government, and its contractors,
licensees, certificate holders, and grantees shall be subject to appropriate sanctions if they
knowingly, willfully, or negligently: disclose to unauthorized persons information properly
classified under this order or predecessor orders; classify or continue the classification of
information in violation of this order or any implementing directive; create or continue a special
access program contrary to the requirements of this order; or contravene any other provision of
this order or its implementing directives.

Sanctions may include reprimand, suspension without pay, removal, termination of classification
authority, loss or denial of access to classified information, or other sanctions in accordance with
applicable law and agency regulation. If the Director of ISOO finds that a violation has
occurred, the Director shall make a report to the head of the agency or to the SAO so that
corrective steps, if appropriate, may be taken.

We found that USDA’s Departmental manual properly addresses the requirement of sanctions
for security infractions and violations. The manual describes an infraction and the action to be


22
     Public Law 111-258, section 6, October 7, 2010.

                                                               AUDIT REPORT 61701-0001-32          9
taken by the supervisor. A security violation is described as a more serious disregard for security
procedures and responsibilities. Therefore, disciplinary action will be considered for security
violations following the principle of progressive discipline. These actions could be: a reprimand
or warning; a suspension without pay; or loss of security clearance or employment.23

Conclusions

We found that the agency had not developed a records management system to identify those
documents that need to be reviewed for continued national security or declassification. In
addition, all eight key areas reviewed were lacking proper guidance in the Departmental
regulation and the manual provided to the subordinate agencies and offices. USDA should
institute a records management system and update polices to prevent the risk of over-classifying
documents, and the potential of improperly releasing national security information.

Recommendation 1 to the Personnel and Document Security Division (PDSD)
Establish a records management system to facilitate the release of information after the
declassification date.

Agency Response
In a response dated September 19, 2013, OHSEC officials stated that to ensure classified records
are maintained, OHSEC uses DR 3080-001 and E.O. 13526. The ISC [Information Security
Coordinator] will be made aware of their responsibility in maintaining a separate classified
records management system to the extent possible. Training will be incorporated into the annual
refresher and specific training for the ISC will enable the identification, preservation, and
retirement of permanent records. The general awareness will be incorporated into the FY 2014
annual refresher training. ISC-specific training will be developed and implemented in AgLearn
for all ISCs by the second quarter of 2014.

OIG Position
We are unable to accept management decision at this time. OHSEC’s response does not state
that a records management system will be developed, only that the ISCs will be made aware of
their responsibility along with providing specific training to them.

In order to reach management decision, the response needs to address specific corrective actions
that are planned or completed by PDSD to ensure a records management system is developed
that will facilitate the release of information after a declassification date and provide an
estimated date.




23
     DM 3440-001, chapter 9.5, May 1, 2008.

10         AUDIT REPORT 61701-0001-32
Recommendation 2 to PDSD
Review all documents in which the declassification date has passed, in accordance with the
“Mandatory Review for Declassification.”

Agency Response
OHSEC will incorporate specific guidance into the ISC-specific training that addresses the need
to review all classified holdings for appropriate markings and control information by the end of
the second quarter of FY 2014. This training will include the proper marking elements to ensure
all responsible understand the marking and control requirements.

OIG Position
We are unable to accept management decision at this time. The response does not state that
documents in which the declassification date has passed will be reviewed. It only addresses that
training will be updated to address the need to review all classified holdings.

In order to reach management decision, the response needs to state actions planned or completed
by PDSD to ensure that all documents are reviewed in which the mandatory declassification date
has passed and an estimated completion date that all documents will be reviewed.

Recommendations 3 to the Senior Agency Official (SAO)
Dedicate the resources to expedite the process of ensuring the Departmental regulation and
manual, DR 3440-001 and DM 3440-001, are updated to reflect Federal requirements
(E.O. 13526 and 32 CFR 2001).

Agency Response
OHSEC has identified the update of the DM 3440-001 as a critical priority for FY 2014.

OIG Position
We are unable to accept management decision at this time. The response did not provide a date
that the Departmental regulation and manual updates will be completed.

In order to reach management decision, an estimated completion date for issuing the updated
Departmental regulation and manual needs to be provided.




                                                           AUDIT REPORT 61701-0001-32         11
Finding 2: Effectiveness of Original Classification Authorities
Original Classification Authorities (OCA) are delegated in writing, according to position, by the
President, the Vice President, or an agency head or other official designated by the President, to
initially classify information. The OCA is responsible for approving, in writing, any
classification guide prepared for use by derivative classifiers.

We found that the classification guide developed by USDA24 was missing required elements
needed for proper derivative classification decisions. OIG concluded that this was caused by
Departmental omission and officials’ misinterpretation of the regulations (See Findings 1 and 7).
As a result, derivative classifiers do not have adequate information to make a proper and uniform
derivative classification decision, which could lead to a misclassification or over-classification of
information.

Designation of Original Classification Authority

We determined that the Secretary of Agriculture was designated to classify information
originally as “Secret,” by the President, on December 29, 2009, by E.O. which also specified that
this authority may not be delegated (See Finding 1 concerning delegation of OCA). 25, 26

Original Classification Authority Training

As an OCA, the Secretary is authorized to originally classify information, as well as develop
classification guides to facilitate the proper and uniform derivative classification of information.
To ensure that OCAs are aware of their responsibilities and are equipped to adequately manage
the agencies’ handling of classified information, they are required to complete training.
According to the OCA, initial training was completed in January 2009 and a refresher training in
March 2013. However, we found that PDSD did not have documentation confirming that the
OCA had completed the required annual training (See Finding 7 regarding OCA training).

USDA Classification Guide

As an OCA, the Secretary of Agriculture is responsible for any classification guide, which,
according to regulation, must be prepared to facilitate the proper and uniform derivative
classification of information.27

At a minimum, classification guides must:

     ·   identify the subject matter of the classification guide;
     ·   identify the original classification authority by name and position, or personal identifier;
     ·   identify an agency point-of-contact for questions regarding the classification guide;

24
    USDA Carver + Shock Classification Guidance, July 2010.
25
   75 FR 735-736, January 5, 2010.
26
    As noted in Finding 1, the Departmental regulation and manual allow the OCA to re-delegate the authority to the
“Deputy Secretary.”
27
   32 CFR 2001.15(a), July 1, 2010 Edition.

12       AUDIT REPORT 61701-0001-32
       ·   provide the date of issuance or last review;
       ·   state precisely the elements of information to be protected;
       ·   state which classification level applies to each element of information;
       ·   state, when applicable, special handling caveats;
       ·   state a concise reason for classification which, at a minimum, cites the classification
           category in section 1.4 of E.O. 13526; and
       ·   prescribe a specific date or event for declassification.28

We found issues with the Department’s classification guide that was used by derivative
classifiers, and signed by the Secretary of Agriculture on July 19, 2010. Specifically, we found
that the classification guide does not:

       ·   identify any agency points-of-contact, or
       ·   prescribe a specific date or event for declassification.

While PDSD staff stated that the classification guide’s memorandum identifies various
individuals, such as the Assistant Secretary for Administration and the Director, Office of
Homeland Security and Emergency Coordination, OIG noted that the memorandum does not
specifically identify either of these individuals as a point-of-contact for questions. PDSD staff
agreed to update the guide to include a specifically designated point-of-contact.

Lastly, the classification guide gave a range of years (5 to 25), instead of a specific date or event
for declassification. PDSD staff stated that the subject matter experts set the duration of
classification based on their knowledge because they are the experts. However, the Federal
regulation states that information classified derivatively on the basis of a classification guide
shall carry forward the markings taken from the instructions in the appropriate classification
guide.29 Thus, OIG concluded that the duration is to be set in the classification guide, by the
OCA. PDSD staff did not agree and stated that the subject matter experts are the only ones that
can make this decision, but subsequently agreed to work with other Departmental officials to set
a specific declassification date by description in the classification guide.

Conclusions

In addition to identifying issues concerning USDA’s provisions for OCA delegation and
documentation of OCA training (which are detailed in Findings 1 and 7, respectively), we
determined that the OCA needs to ensure that the classification guide is updated and compliant
with regulations to ensure that it provides derivative classifiers with necessary points-of-contact,
as well as a specified date or event for declassification. Because a point-of-contact is not
identified on the classification guide, a derivative classifier may not contact the appropriate
individual when seeking to obtain information concerning classification of a document, which
could result in an incorrect classification decision. Also, because the Department used a range of
years, instead of a specific date or event for declassification, the derivative classifier is given the
responsibility to make an OCA decision concerning the duration of classification. Both of these

28
     32 CFR 2001.15(b), July 1, 2010 Edition.
29
     32 CFR 2001.22(a), July 1, 2010 Edition.

                                                                  AUDIT REPORT 61701-0001-32         13
items could lead to a misclassification, over-classification, or unauthorized release of classified
national security information.

Recommendation 4 to the Original Classification Authorities (OCA)
Update the classification guide to include a point-of-contact and specific date or event for
declassification.

Agency Response
OHSEC believes that further guidance from ISOO is required. OHSEC will provide ISOO’s
guidance to OIG during the first quarter of FY 2014.

OIG Position
We are unable to accept management decision at this time. The response states that ISOO will
be contacted for guidance but does not state that the classification guide will be updated.

In order to reach management decision, the response needs to specify an estimated completion
date that the OCA will issue the updated classification guide that includes the required
information.

Recommendation 5 to PDSD
Develop and implement procedures to review and update the classification guide when
regulatory changes occur to ensure future compliance.

Agency Response
OHSEC will prepare a policy memorandum outlining the new procedures. The memorandum
will be distributed by the end of the first quarter of FY 2014.

OIG Position
We accept management decision for this recommendation.




14     AUDIT REPORT 61701-0001-32
Finding 3: Effectiveness of Original Classification Decisions and
Dissemination Control Marking Decisions
Original classification decisions and the proper marking of classified information, to include
proper application of dissemination and control markings, need improvement, as USDA did not
properly mark classified documents. Specifically, OIG reviewed the two documents that
received original classification, during the timeframe covered by our audit, and found that
neither had been properly marked to include the OCA’s identification or the reason for
classification.30 This occurred because the documents were initially determined to be derivative
classifications, but were subsequently changed to original classifications and did not receive
updated markings. Individuals relying on these documents as reference material to make
derivative classification decisions may not have the necessary information to correctly mark the
classified documents, which could result in an over-classification, misclassification, or
unauthorized release of classified information.

E.O. 13526, section 1.6, and 32 CFR 2001, subpart C, require that, at the time of classification,
originally classified documents shall include the following markings in a manner that is
immediately apparent:

       ·   the name and position of the classifier, or personal identifier (“classified by” line);
       ·   agency and office of origin;
       ·   reason for classification;
       ·   declassification instructions (“declassify on” line);
       ·   overall marking;
       ·   portion marking; and
       ·   date of origin of document.

The Food Safety and Inspection Service, a USDA agency, initially marked the two documents as
derivative classifications. Specifically, the two documents had the following derivative
classification markings: portion markings, overall classification, “declassify on,” and “derived
from.”31 However, after consultation with PDSD, it was determined that the documents were
original classifications, as they contained new information. The OCA classified both documents
at the “Secret” level on November 3, 2010, by signing a memorandum.

OIG reviewed these two documents and found that, although the documents were approved as
original classifications, the markings on the documents were not updated once the original
classification was approved. As a result, the documents do not indicate the reviewer(s) of the
documents. A PDSD official confirmed that the markings were not updated. Because of the
infrequency of original classification decisions in the Department, a checklist outlining the
required markings for the OCA to apply would assist in ensuring documents are appropriately
marked.



30
     These two documents were the only original classification documents in USDA in our universe.
31
     For more information on required derivative classification markings, see Finding 4.

                                                                       AUDIT REPORT 61701-0001-32    15
Conclusions

We found that the Department needs to improve its review of classified documents to ensure that
information is appropriately marked. Because all required markings were not included on the
documents, an individual using these documents as a reference for a derivative classification
decision may not have the necessary information to correctly mark the document. This could
result in an over-classification, misclassification, or unauthorized release of classified
information.

Recommendation 6 to the OCA
Correct the markings on the two originally classified documents so that it is clear that the
documents are original classifications, not derivative classifications.

Agency Response
OHSEC will correct the markings by end of the first quarter of FY 2014.

OIG Position
We are unable to accept management decision at this time. The response states that OHSEC will
correct the markings on the documents. However, OHSEC does not have original classification
authority. Since the two documents were approved as original classifications by the OCA, this
individual would have to approve any corrections by OHSEC on the documents.

In order to reach management decision, the response needs to specify that the OCA will review
and approve any changes to the markings on the originally classified documents and provide an
estimated completion date.

Recommendation 7 to PDSD
Develop and implement a checklist to be used by the OCA, at the time of classification, to ensure
that all originally classified documents include the required markings.

Agency Response
OHSEC will develop a checklist by end of the first quarter in FY 2014.

OIG Position
We accept management decision for this recommendation.




16     AUDIT REPORT 61701-0001-32
Finding 4: Effectiveness of Derivative Classification Decisions and
Dissemination Control Marking Decisions
Derivative classification means incorporating, paraphrasing, restating, or generating in new form
information that is already classified, and marking the newly developed material consistent with
the classification markings that apply to the source information. Derivative classification
includes the classification of information based on classification guidance. The duplication or
reproduction of existing classified information is not derivative classification.

We found that USDA personnel did not properly mark derivatively classified documents. Our
review of 14 documents, derivatively classified between October 2010 and April 2013, found
that 9 did not identify who was applying the markings, 8 did not carry forward the
declassification date, and 7 did not contain the portion markings. These derivative classification
markings were missing because staff misunderstood how to mark these documents and, instead,
mistakenly treated them as working papers. Until staff are fully familiar with specific classified
documents’ marking requirements, USDA runs the risk of over-classifying or improperly
releasing national security information.

The Federal regulation governing classified national security information details a uniform
security classification system, which requires that standard markings be applied to classified
information. Additionally, the regulation states that the markings of classified information shall
not deviate, unless approved by the Director of ISOO. Markings must be uniformly and
conspicuously applied to leave no doubt about the classified status of the information, the level
of protection required, and the duration of classification.32 Derivatively classified documents
must carry forward the markings from the source document or follow marking instructions in the
appropriate classification guide.33 The required markings of derivatively classified information
are:

       ·    “Classified By” – the identity of the person applying the derivative classification by
            name and position or personal identifier (if not evident, the agency and office of origin
            shall be identified and follow the name on the “Classify by” line).
       ·    “Derived From” – the source of the information; if multiple sources, the marking can
            state “multiple sources,” but a list must be included or attached (including the agency,
            office of origin, and the date of the source document or guide).
       ·    “Declassify On” – the declassification date will be carried forward from the source
            document or the duration instruction from the classification guide; however, if multiple
            source documents are used, then the longest duration of any of its source documents is
            used.
       ·    Overall classification – the highest level of classification of information contained within
            the document, placed conspicuously at the top and bottom of the outside front cover (if
            any), on the title page (if any), on the top and bottom of every page, and on the outside
            of the back cover (if any).


32
     32 CFR 2001.20, July 1, 2010 Edition.
33
     32 CFR 2001.22(a), July 1, 2010 Edition.

                                                                 AUDIT REPORT 61701-0001-32         17
     ·   Portion markings – each portion of a derivatively classified document shall be marked
         immediately preceding the portion to which it applies, in accordance with its source
         document.
     ·   Date of origin of document – the date of origin of the document must be indicated in a
         manner that is immediately apparent.
     ·   Dissemination control and handling markings – additional control and handling
         markings that supplement the overall classification markings, if required by the
         agency.34

The only exception to these requirements is for a working paper. Working papers are defined as
documents or materials, regardless of the media, which are expected to be revised prior to the
preparation of a finished product for dissemination or retention. If a document or material is
expected to be released by the originator outside of the originating activity, retained for more
than 180 days from date of origin, or filed permanently, then it must be portion marked in the
same manner as described for a finished document.35

We reviewed a total of 14 derivatively classified documents within the scope of our review
(October 2010 through April 2013). Of the 14, 9 were briefing documents36 (one of which was
classified as Top Secret–sensitive compartmented information). We found that none of the nine
briefing documents contained all the required markings. While all the briefing documents were
marked with the overall marking of Secret or Top-Secret, they did not contain all of the
remaining required elements, such as who classified the document, the source of the information,
when it was to be declassified, or the portion markings. Therefore, those that received the
briefing would not know what parts of the documents were unclassified, making such portions of
the briefings over-classified.

Based on our review, we determined that staff misunderstood how to handle briefing documents,
due to insufficient training and guidance (For additional issues on training, see Finding 7). One
person interviewed believed that if the presentation was not going to be maintained longer than
180 days (working paper retention period), it did not need all the markings. As the briefing
documents were not meant to be maintained, the individual saw these as working papers. As a
working paper, the briefing documents would be considered “draft” documents, not to be
released by the originator, and portion marking would not be required. However, because the
documents were used for presentation and released outside of the originating activity, the
required markings must be applied. An agency official confirmed that these documents were
improperly marked. He further stated that when briefing documents are presented to individuals
outside the agency, the proper markings must be applied.

Conclusions

We found that because personnel were not sufficiently aware that briefing documents containing
classified information are not to be treated as working papers, these briefing documents did not


34
   32 CFR 2001.22(b-i), July 1, 2010 Edition.
35
   32 CFR 2001.24(d), July 1, 2010 Edition.
36
   The documents consisted of briefing slides.

18       AUDIT REPORT 61701-0001-32
receive all the necessary markings. While a derivative classifier referred to these missing
elements as “administrative errors,” these errors could result in over-classification of
information. It is therefore crucial that all staff who are responsible for marking these documents
have an understanding of the various classified documents and their particular marking
requirements and that the Department take steps to ensure that its documents are properly
marked.

Recommendation 8 to PDSD
Develop and conduct specialized training for derivative classifiers that discusses the differences
between working papers and finished documents and the marking requirements, as described in
the regulation.

Agency Response
OHSEC will deliver specialized training for derivative classifiers by the end of the second
quarter of FY 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 9 to PDSD
Coordinate with the subordinate agencies to review all USDA classified documents maintained,
and correct all improper markings identified.

Agency Response
OHSEC will lead a review process with all subordinate agencies to review and correct all USDA
classified documents as needed by the end of FY 2014.

OIG Position

We accept management decision for this recommendation.




                                                             AUDIT REPORT 61701-0001-32         19
Finding 5: Effectiveness of Security Self-Inspection Program
The SAO is required to establish a self-inspection program and report annually on it to the
Director of ISOO. We determined that USDA does not ensure that its subordinate agencies are
conducting self-inspections in accordance with regulations and procedures. We also found that
the program was ineffective at providing information about the structure and implementation of
USDA’s self-inspection program and reporting on the findings from this program. This occurred
because PDSD Information Security staff do not follow up with subordinate agencies to obtain
and maintain adequate documentation of self-inspections subordinate agencies have conducted
(See Finding 6). Therefore, USDA is unable to effectively track the findings or
recommendations for improvement that resulted from the self-inspections conducted by its
subordinate agencies. Additionally, USDA does not have complete information summarizing the
results of its self-inspection program, which is necessary to adequately determine the
effectiveness of its classified national security information program within individual agency
activities and the Department as a whole.

E.O. 1352637 and the Federal regulation38 require SAOs to establish self-inspection programs.
According to USDA’s Departmental manual, self-inspections should be completed a minimum
of every 2 years by agencies that receive, generate, and store classified information. Copies of
the inspection report must be sent within 5 calendar days to PDSD for record purposes. The
report should also be forwarded to senior agency management for their overall program security
awareness and to assist them in planning for future security upgrades or expenses. E.O. 13526
and the Federal regulation39 also require SAOs to report annually on their self-inspection
program to the Director of ISOO. The report provides information about the structure and
implementation of the agency's self-inspection program and identifies the findings from this
program, which has been established by the SAO to help oversee the agency's classified national
security information program.

The information contained in the self-inspection report(s) should flow as follows: The first part
of the report is a description of the agency's self-inspection program that outlines how the
program addresses the requirements of the regulation.40 The second part is an account of the
findings of the agency's self-inspection program. This must include an assessment and summary
of the findings and specific information about the review of the agency's original and derivative
classification actions. Also, it is essential that the report identify corrective actions that have
been taken or are planned to address deficiencies and misclassification actions. Lastly, if best
practices were identified during the self-inspections, they should be included in the report as
well.

Because PDSD Information Security staff do not maintain documentation of the self-inspections,
OIG was unable to verify that subordinate agencies performed self-inspections. USDA reported
to ISOO on the Agency Security Classification Management Program Data Report (Standard


37
   75 FR 707, section 5.4(d)(4), January 5, 2010.
38
   32 CFR 2001.60(b), July 1, 2010 Edition.
39
   32 CFR 2001.60(f)(2), July 1, 2010 Edition.
40
   32 CFR 2001.60(a-e), July 1, 2010 Edition.

20      AUDIT REPORT 61701-0001-32
Form (SF)-311) that 10, 3, and 13 self-inspections had been conducted in FYs 2010, 2011, and
2012, respectively. However, when requested by OIG, the Information Security staff were only
able to provide documentation to support three self-inspections performed in FY 2012 (See
Finding 6).

The documentation of self-inspections is necessary in order for PDSD to track findings and
determine whether corrective action has been taken. Without these self-inspection reports, OIG
was unable to review findings or corrective actions from the remaining 23 self-inspection reports
and concluded that the self-inspection program was ineffective. The staff agreed that
improvement is needed in the documentation of the self-inspection program.

We also noted problems with how USDA was reporting to ISOO on the Department’s self-
inspection program (See Finding 6). We reviewed the reports from the previous 2 fiscal years
and noted that required information was not provided to ISOO. Specifically, the USDA’s
FY 2011 annual self-inspection report did not include the following information:

   ·   A description of the agency's self-inspection program to include activities assessed,
       program areas covered, and methodology utilized.
   ·   An assessment and a summary of the findings of the agency's self-inspection program
       in the following program areas: original classification, derivative classification,
       declassification, safeguarding, security violations, and management and oversight.
   ·   Specific information with regard to the findings of the annual review of the agency's
       original and derivative classification actions to include the volume of classified
       materials reviewed and the number and type of discrepancies identified.
   ·   Actions that have been taken or are planned to correct identified program deficiencies,
       marking discrepancies, or misclassification actions, and to deter their reoccurrence.
   ·   Best practices that were identified during self-inspections.

Similar deficiencies were noted in the FY 2012 annual self-inspection report. This report did
not include the following information:

   ·   A description of the agency's self-inspection program to include activities assessed,
       program areas covered, and methodology utilized.
   ·   An assessment and a summary of the findings of the agency's self-inspection program
       in the following program areas: derivative classification and security violations.
   ·   Specific information with regard to the findings of the annual review of the agency's
       derivative classification actions to include the volume of classified materials reviewed
       and the number and type of discrepancies identified.
   ·   Best practices that were identified during self-inspections.

PDSD staff stated that, while they try to gather the missing information, due to resource
constraints, they allow the subordinate agencies to complete the self-inspection and send in their
results to PDSD. They acknowledged that in some cases, they may not have received all the
self-inspections (See Finding 6).



                                                             AUDIT REPORT 61701-0001-32           21
Also, ISOO conducted a review of USDA’s classified national security information program in
2005 and found a high percentage of classified documents with marking errors, which indicated
USDA’s prior corrective actions were not adequate to eliminate future marking errors.41

Conclusions

Self-inspections can be a valuable guide to pinpointing deficiencies and effectively addressing
them. If the self-inspection program is not gathering the necessary information, or the self-
inspections are not performed regularly and as required, the self-inspection program’s impact
will be greatly weakened and the issues will persist. For instance, in 2005, ISOO reported a high
percentage of classified documents with marking errors. A self-inspection program, which
includes the requirements for marking classified documents, that is efficiently conducted and
documented, could assist PDSD in identifying and addressing continued issues regarding
marking errors (See Findings 3 and 4).

Because ISOO relies on the information agencies report to determine the status of the
classification programs in both Government and industry on an annual basis, it is essential that
USDA ensures it is reporting complete information. Without proper documentation of a self-
inspection program, and reporting of essential security information to ISOO, USDA is unable to
ensure that it has an effective classified national security information program.

Recommendation 10 to the SAO
Direct all subordinate agencies to schedule, conduct, and document self-inspections and provide
the completed inspections to PDSD.

Agency Response
As answered in Recommendation 9, OHSEC will coordinate with subordinate agencies to
schedule, conduct, and document self-inspections by the end of FY 2014.

OIG Position

We accept management decision for this recommendation.

Recommendation 11 to the SAO
Develop and implement procedures that require PDSD to report to the SAO on the completion of
the subordinate agency self-inspections.




41
     ISOO Report of On-site Review and Document Review of USDA, December 5, 2005.

22        AUDIT REPORT 61701-0001-32
Agency Response
Currently, the SAO has provided a response through the required SF-311 reporting process. This
process will be updated by the end of the first quarter FY 2014 to ensure all SF-311 reports are
submitted to the SAO or their designee prior to being submitted to ISOO.

OIG Position
We are unable to accept management decision at this time. The response stated that the process
will be updated to ensure that all SF-311s are provided to the SAO or designee before being
provided to ISOO. However, the recommendation requires PDSD to report to the SAO on the
completion of the subordinate agency self-inspections, not completing the SF-311s, which was
addressed in Finding 6.

In order to reach management decision, the response needs to specify that a procedure will be
developed that requires PDSD to report to the SAO on the completion of the subordinate agency
self-inspections and provide an estimated completion date for implementation of the procedure
by the SAO.

Recommendation 12 to the OCA
Develop and implement procedures that require the SAO to review and verify that the annual
self-inspection report includes all required information, prior to submitting the report to ISOO.

Agency Response
As identified in Recommendation 11, this process will be updated by the end of the first quarter
of FY 2014.

OIG Position
We are unable to accept management decision at this time. The response did not address the
development of procedures to require the SAO to verify that all required information was
included in the annual self-inspection report. Instead, the response discussed a different report,
the SF-311 that is provided to ISOO.

In order to reach management decision, the response needs to specify that the procedure will be
developed and provide an estimated completion date for implementation of the procedure by the
OCA.




                                                             AUDIT REPORT 61701-0001-32          23
Finding 6: Effectiveness of Security Reporting
Each agency, e.g., USDA, is required to gather information and report on the state of its security
program. We found that USDA has not effectively gathered information and reported statistics
related to its security classification program. This occurred because USDA’s subordinate
agencies do not always provide PDSD with reports containing the needed information or
documentation. As a result, ISOO may be receiving and relying upon incomplete or inaccurate
information concerning the status of USDA’s security classification program.

According to Federal regulation,42 each agency that creates or safeguards classified information
must annually report to the Director of ISOO statistics related to its security classification
program by using the Agency Security Classification Management Program Data Report
(SF-311). The SF-311 is a data collection form completed only by those Executive branch
agencies that create and/or handle classified national security information.

To meet these requirements, each USDA subordinate agency must annually complete an
individual SF-311 and submit it to PDSD. PDSD Information Security staff then compile this
information into a comprehensive SF-311. PDSD submitted the comprehensive forms to ISOO
for FYs 2010, 2011, and 2012, on behalf of USDA.

If subordinate agencies have not submitted their reports, the agency (USDA) may request an
extension from ISOO or submit the comprehensive SF-311, with an annotation stating which
subordinate agencies did not submit their reports, and ISOO will note this in the annual report.
Additionally, if an agency estimates the number of derivative classification decisions, the
sampling period and multiplier used shall be annotated in the comments section of the SF-311.

We found that USDA’s comprehensive SF-311s submitted to ISOO contained unsupported data
that, at times, conflicted with the data submitted in the subordinate agencies’ SF-311s. For
example, in FY 2011, USDA reported 531 derivative classification decisions, but the SF-311s
provided by subordinate agencies supported only 103. Similarly, in FY 2012, USDA reported
7,179 derivative classification decisions, while subordinate agencies’ SF-311s supported
only 6,439.

We also found that USDA’s comprehensive reports to ISOO did not always accurately reflect the
number of self-inspections reported by subordinate agencies. The table below presents the
number of self-inspections reported to both ISOO and PDSD for FYs 2010, 2011, and 2012.

            FY                Number of Self-Inspections   Number of Self-Inspections
                                 Reported to ISOO             Reported to PDSD
           2010                             10                         10
           2011                              3                         10
           2012                             13                          7




42
     32 CFR 2001.90(b), July 1, 2010 Edition.

24         AUDIT REPORT 61701-0001-32
PDSD Information Security staff stated that these variances occurred because not all subordinate
agencies responded to PDSD’s annual request for data, and PDSD did not have the ability to
enforce compliance. OIG found that USDA does not have guidance in place directing
subordinate agencies to annually submit the required statistical information. PDSD Information
Security staff further explained that, because subordinate agencies do not always provide
statistical information to PDSD, PDSD must often contact each subordinate agency individually
to obtain the required data. PDSD Information Security staff may then adjust the numbers based
on the verbal contact and their own knowledge of the agency’s classified national security
information activity for the year.

We found that PDSD did not document in the SF-311 comments section how it calculated
estimated statistics. Additionally, when requested, PDSD staff were unable to determine how the
calculation was performed and could not provide documentation for the basis of the estimate.
This occurred primarily because PDSD does not have procedures in place to document the
statistical information it receives, or to document any changes or estimations of this information.

OIG noted that USDA may request to extend its deadline in order to have more time to follow up
with subordinate agencies. Additionally, USDA must notify ISOO which subordinate agencies
did not report, so that ISOO can include this information in the annual report. Finally, when
estimating numbers and statistics, PDSD should document and explain its methodology for doing
so in the comments section when submitting this information to ISOO, as required.

Conclusions

PDSD can improve the accuracy of its annual report (SF-311) if it obtains information from all
subordinate agencies and it fully documents methodologies for estimating information. While
OIG acknowledges that individual followup can be lengthy and time-consuming, requesting
extensions, as well as reporting which subordinate agencies did not provide information, will
increase the likelihood of subordinate agencies providing accurate information. Additionally,
USDA must have clear procedures and direction for both PDSD and subordinate agencies on
how to document the numbers they report. USDA must ensure that it is submitting accurate
information to ISOO, since this information is crucial to ensuring the effectiveness of statistical
reporting.

Recommendation 13 to the SAO
Direct all subordinate agencies to provide required statistical information to PDSD annually to
ensure accurate reporting to ISOO.

Agency Response
Additional direction will be provided to the subordinate agencies outlining the requirement to
provide annual reporting by the end of the first quarter of FY 2014.




                                                              AUDIT REPORT 61701-0001-32         25
OIG Position
We accept management decision for this recommendation.

Recommendation 14 to PDSD
Develop procedures to fully document the statistical information (including methodologies
utilized for changing or estimating data) used to support the annual report to ISOO.

Agency Response
OHSEC will develop procedures to document the information by the end of the second quarter of
FY 2014.

OIG Position
We accept management decision for this recommendation.




26     AUDIT REPORT 61701-0001-32
Finding 7: Effectiveness of Security Education and Training
PDSD’s classification management training content and documentation need to be improved on a
more general level, particularly in providing required information to individuals with security
clearances. Specifically, we found that PDSD does not maintain records of the training provided
outside of AgLearn,43 and the training documents for the Classified National Security
Information Annual Refresher Briefing did not cover all the required elements of the biennial
training. This occurred because the training records management system is inadequate, and
training documents have not been updated to cover all required topics. As a result, there is a
greater risk that individuals creating or handling classified information have not been adequately
trained to do so. This may result in over-classification, misclassification, or improper release of
national security information.

According to Federal regulation, all executive branch employees who create, process, or handle
classified information must undergo training. All agencies are to conduct training tailored to the
organization, using briefings, interactive videos, dissemination of instructional materials, online
presentations, or other methods, and maintain records about the training and the employees who
participated in the training.44

OCAs are required to receive training before classifying original information and then at least
once each calendar year thereafter. The annual training must include guidance on proper
classification and declassification procedures, with an emphasis on the avoidance of over-
classification. Everyone who applies derivative classification markings is to receive training on
proper application of the derivative classification principles before classifying information, and
retraining at least once every 2 years.

The biennial training for derivative classifiers must include:

     ·   principles of derivative classification;
     ·   classification levels;
     ·   duration of classification;
     ·   identification and markings;
     ·   classification prohibitions and limitations;
     ·   sanctions;
     ·   classification challenges;
     ·   security classification guides; and
     ·   information sharing.




43
   The Agriculture Learning (AgLearn) system is USDA’s Departmentwide system for managing training records
and activity at USDA.
44
   32 CFR 2001.70, July 1, 2010 Edition.

                                                                   AUDIT REPORT 61701-0001-32            27
The regulation also states that the penalty for not completing the mandatory training for either an
OCA or a derivative classification authority (DCA) is a suspension of the individual’s authority
until the training is completed.45

We found that USDA’s current training efforts need improvement to meet these requirements.
USDA incorporated the required biennial training for DCAs with its annual refresher on security
education and training through the online training system AgLearn. The agency stated that this
training was given to everyone who holds a security clearance that gives them the authority to
handle, create, or process classified information. We reviewed training records for 128 of these
individuals to verify they had received training and that the training received met the
requirements for possible derivative classifiers.46

We found that the USDA’s training program and retention of training records was not in
accordance with ISOO’s regulations and the E.O., and lacked key information. Specifically, the
AgLearn training did not cover:

     ·   avoidance of over-classification;
     ·   prohibitions and limitations on classification;
     ·   classification challenges; and
     ·   information sharing.

In addition to not covering the above elements, the AgLearn training did not clearly address:

     ·   principles of derivative classification;
     ·   duration of classification; and
     ·   classification guides.

As a result, the USDA employees who took the training through AgLearn were not properly
trained in all aspects of derivative classification.

PDSD also did not keep sufficient documentation to support that all Secure Network (SN) users
completed the training. This had been an issue which ISOO reported in 2005. We found that of
the 128 SN users, PDSD did not have records showing that 28 of these users completed the
training through AgLearn. Furthermore, PDSD could not provide evidence that the OCA had
received the required annual training. Additionally, while PDSD officials stated that anyone
who could not complete the training in AgLearn did so through an alternative process, they were
able to provide documentation supporting that only 9 of the 28 users had completed training
through this process. Therefore, 19 of the 128 SN users may not have received the required
training.

45
   32 CFR 2001.71(c)(3)(i-ii) states that “[a]n agency head, deputy agency head, or senior agency official may grant
a waiver of this requirement if an individual is unable to receive this training due to unavoidable circumstances. All
such waivers shall be documented. Whenever such a waiver is granted, the individual shall receive the required
training as soon as possible.”
46
   These individuals were identified by PDSD as having Secure Network (SN) accounts. Individuals within USDA
that have an SN account could potentially create a derivatively classified document because classified information
can only be processed on a certified and accredited computer system.

28       AUDIT REPORT 61701-0001-32
PDSD officials stated that they did not waive the training requirement for those who could not
complete the training for various reasons. However, PDSD does provide extensions for
completing the training on a case-by-case basis, such as when a user was on military orders,
AgLearn was not working, or users were unable to access AgLearn from their location. When
asked about suspending an original or derivative classifier’s authority to classify, as required by
the regulation, PDSD officials stated that there were no suspensions.

Conclusions

PDSD needs to take further steps to ensure that all personnel who handle, create, and process
classified information receive adequate training. This requires training content that
comprehensively covers all requirements, and a method of documenting which personnel have
received such training. Training is necessary to ensure that the OCA and DCAs have satisfactory
knowledge and understanding of classification, safeguarding, and declassification of national
classified information. Training also increases uniformity and reduces over-classification or
improper classification, improper safeguarding, and inappropriate or inadequate declassification
practices. Because PDSD does not waive the training requirement or suspend anyone’s authority
to classify information, it must maintain records of training for everyone within USDA who has
a security clearance.

Recommendation 15 to PDSD
Develop, complete, and record computer-based training (AgLearn) that meets all the
requirements for the original and derivative classification authorities.

Agency Response
OHSEC is currently updating the FY 2014 computer-based training, and requirements will be
met by the end of FY 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 16 to PDSD
Establish a tracking system to record and manage training completed outside of AgLearn for
everyone with original or derivative classification authorities.

Agency Response
USDA considers AgLearn the authoritative tool for providing training and education to its
employees on a myriad of subject matter that is conducive to their personal and professional
development. OHSEC utilizes this methodology to reach the estimated 3,500 cleared staff


                                                             AUDIT REPORT 61701-0001-32          29
within all of the agencies that comprise USDA and considers the completion reports that come
from AgLearn as an authoritative document.

OIG Position
We are unable to accept management decision at this time. The response did not provide a
method to record training for those individuals who are not able to complete it in the AgLearn
system and therefore must complete it in an alternative manner.

In order to reach management decision, OHSEC needs to develop a process to record and
manage training for those individuals who are not able to access the AgLearn system and must
complete it through an alternative method and provide an estimated completion date.

Recommendation 17 to PDSD
Develop procedures that identify those original or derivative classification authorities who do not
complete required training annually or biennially, as appropriate, and suspend those individuals’
authority to classify information, until training is completed.

Agency Response
OHSEC will recommend suspension for anyone who does not complete their training and who
does not have approval for an exemption.

OIG Position
We are unable to accept management decision at this time. OHSEC stated that it will
recommend suspension for anyone who does not complete their training but did not include
procedures that will be developed to suspend individuals.

In order to reach management decision, OHSEC needs to specify the actions planned or
completed to develop procedures to identify and address those individuals who do not complete
the required training and suspend those individuals’ authority along with an estimated
completion date.




30     AUDIT REPORT 61701-0001-32
Scope and Methodology 
Our audit examined 31 documents classified by USDA at the “Secret” and “Top-Secret” level,
either originally or derivatively (16 classified since October 1, 2010, and 15 classified prior to
that date). We conducted fieldwork from February 2013 through July 2013. We conducted our
audit by visiting OHSEC in Washington, D.C., as well as five locations that store classified
national security information (four in Washington, D.C., and one storage location in Riverdale,
Maryland).

We used a guide that was prepared by a working group of participating Inspectors General (IG),
for all IG offices participating in this Governmentwide effort, on behalf of the Council of the
Inspectors General on Integrity and Efficiency. The guide was developed to meet the
requirements of Public Law 111-258, Reducing Over-Classification Act, regarding the
responsibilities of each participating Department and agency. The IG working group was formed
to ensure consistency in the evaluative process, comparable reporting, and the ability to compare
results across agencies. As directed by the Act, we consulted with ISOO and coordinated
throughout the evaluation with another IG office, with the intent of ensuring that our review
followed a consistent methodology to allow for cross-agency comparisons. We were assisted
during our review of determining the appropriateness of classification decisions by auditors from
the Defense Intelligence Agency.

USDA did not maintain an inventory of all classified documents. To select documents for
review, we first obtained a list of 128 individuals with Secure Network (SN) accounts from
PDSD. This SN serves as a classified Automated Information System to provide cleared
analysts the ability to communicate within the classified environment. This network is not a
USDA information system; it is controlled and owned by another Federal Government agency.
We did not evaluate the effectiveness of this information system or its controls, as the proper
classification, declassification, and marking of classified national security information is
manually controlled by the OCA and the DCA at the time a classification decision is made. As
such, we did not rely upon an information system to obtain sufficient, appropriate evidence to
support the findings presented in this report.

The list of individuals with SN accounts obtained included names and telephone numbers, as
well as the individual’s agency and office. Of the 128 SN users listed, one individual was
removed from the list, due to retirement/transfer. Therefore, OIG sent 127 SN users a survey
aimed at establishing the number of DCA decisions made since October 1, 2010. Of the
127 surveys sent out, 12 of the recipients were either out of the country, their account had been
terminated after we were provided the listing, or they were on extended leave and no
response was expected. Of the 115 individuals remaining, 90 responded to our survey. Based on
the surveys received, eight individuals indicated they had made DCA decisions since October 1,
2010. We interviewed these 8 individuals, and were able to identify and review 14 DCA
determinations made since October 1, 2010, and available for our review at the time the
fieldwork was conducted. OIG also identified and reviewed two OCA determinations made
since October 1, 2010. In addition, OIG selected 14 DCA documents and 1 OCA document
outside the scope of the audit (prior to October 1, 2010) to evaluate whether the agency is
proactive with its declassification procedures.

                                                             AUDIT REPORT 61701-0001-32         31
Our review focused on eight areas: original classification authority; general program
management responsibilities; original classification; derivative classification; declassification;
self-inspections; reporting and definitions; and security education and training.

To discern whether Departmental policies and practices were consistent with E.O. 13526 and
32 CFR 2001, we used the following tools developed by ISOO:

     ·   an agency regulation implementing assessment tool;
     ·   methodology for determining the appropriateness of an original classification decision;
     ·   original classification authority interview coverage;
     ·   methodology for determining appropriateness of a derivative classification decision; and
     ·   derivative classifier interview coverage.

To further assess whether policies, procedures, rules, regulations, and practices had been
adopted, followed, and effectively administered, as well as to identify policies and practices that
may be contributing to persistent misclassification, we also:

     ·   examined the results of the fundamental classification guidance review;
     ·   examined the results of self-inspection reporting;
     ·   examined Forms SF-311, “Agency Security Classification Management Program Data”;
     ·   reviewed relevant policies, regulations, and related studies;
     ·   reviewed 31 classified documents;
     ·   conducted a survey/questionnaire of original and derivative classifiers;
     ·   interviewed two security managers, along with eight derivative classifiers; and
     ·   interviewed key department officials responsible for security training and related policy
         development and implementation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions, based on our objectives.




32       AUDIT REPORT 61701-0001-32
Abbreviations 
AgLearn .....................Agriculture Learning system
CFR ............................ Code of Federal Regulations
DCA ........................... Derivative Classification Authority
DM ............................. Departmental Manual
DR .............................. Departmental Regulation
E.O. ............................ Executive Order
FR ............................... Federal Register
FY .............................. Fiscal Year
IG ............................... Inspector General
ISC ............................. Interagency Security Coordinator
ISCAP ........................ Interagency Security Classification Appeals Panel
ISOO .......................... Information Security Oversight Office
OCA ........................... Original Classification Authority
OHSEC ...................... Office of Homeland Security and Emergency Coordination
OIG ............................ Office of Inspector General
PDSD ......................... Personnel and Document Security Division
SAO............................ Senior Agency Official
SF ............................... Standard Form
SN .............................. Secure Network
USDA......................... U.S. Department of Agriculture




                                                            AUDIT REPORT 61701-0001-32   33
Exhibit A: Effectiveness of Classification Management Policies and 
Control Marking Guidelines  
In the following table, the first column describes the requirement, the second column provides
the citation source for the requirement, and the third column describes how USDA’s current
policy differs from the requirement shown in column one.

               Criteria                           Citation                      USDA’s Current
                                                                             Regulation and Manual
      Original Classification
            Authority

OCA was given to the Secretary of         75 FR 735-736                USDA’s regulation and manual both
Agriculture who “may not delegate                                      state the Secretary “may re-delegate”
the authority” (see Finding 1).                                        OCA to the Deputy Secretary.
General Program Management

OCAs and DCAs are suspended, until        75 FR 707, sections 1.3(d)   Agency guidance does not provide a
mandatory training requirements are       and 2.1(d); and              penalty (suspension) for not completing
met (see Finding 1).                      32 CFR 2001.71(c)(3) and     the required training.
                                          (d)(3)
      Original Classification

Original classification authority is      75 FR 707, section           Agency guidance does not cite the OCA
classifying the information.              1.1(a)(1)                    classification standards.

If there is significant doubt about the   75 FR 707, section 1.1(b)    Agency guidance does not discuss the
need to classify information.                                          presumption against classification when
                                                                       doubt exists.

Classified addendum (see Finding 1).      75 FR 707, section 1.6(g)    The use of a classified addendum is not
                                                                       discussed in agency guidance.

Date of origin of document.               32 CFR 2001.21(e)            Agency guidance does not specify that
                                                                       the date of origin of a classified
                                                                       document must be applied to OCA
                                                                       documents.

Electronic environment markings for       32 CFR 2001.23               USDA’s manual covered the marking of
classified: e-mails, web pages,                                        electronic external removable data
uniform resource locators (URL),                                       storage device (use of label) and e-mails
databases, bulletin boards, wikis,                                     only (DM 3440-001, chapter 4, sections
instant messaging, and attached files.                                 4b(6) and 7).

Individuals must be advised of their      75 FR 707, section 1.8       The manual does not advise individuals
right to appeal agency decisions to       (b)(3)                       of this right.
ISCAP (see Finding 1).



34      AUDIT REPORT 61701-0001-32
Classification Challenges                 32 CFR 2001.14(b)(3)          Agency guidance does not address these
    · initial written response to a                                     timeframes. The manual only addresses
        challenge within 60 days.                                       a 30-calendar day response from PDSD
    · if unable to respond to the                                       (DM 3440-001, chapter 2.1.f).
        challenge within 60 days, the
        agency must acknowledge
        the challenge in writing, and
        provide a date by which the
        agency will respond.
    · must include a statement that,
        if no agency response is
        received within 120 days, the
        challenger has the right to
        forward the challenge to
        ISCAP for a decision.
    · forward the challenge to
        ISCAP if an agency has not
        responded to an internal
        appeal within 90 days (see
        Finding 1).

Classification guides shall conform to    75 FR 707, section 2.2(a      Agency guidance does not contain
standards and be reviewed and             and c)                        procedures for the publication and
updated.                                                                updating of classification guides which
                                                                        meet the minimum standards.
    Derivative Classification

DCA needs to be identified by name        75 FR 707, section            Agency guidance does not require the
and position, or by personal identifier   2.1(b)(1); and                name or personal identifier of those who
(see Finding 1).                          32 CFR 2001.22(b)             apply derivative classification markings.


Transmittal document markings.            32 CFR 2001.24(b)             Agency guidance does not discuss the
                                                                        required markings for transmittal
                                                                        documents.

Date of origin of document.               32 CFR 2001.22(i)             Agency guidance does not specify that
                                                                        the date of origin of a classified
                                                                        document must be applied to DCA
                                                                        documents.
          Declassification

Automatic Declassification.               75 FR 707, section 3.3;       Agency guidance does not include
                                          and 32 CFR 2001.30(m)         procedures for processing requests to
                                                                        ISCAP for exemptions from automatic
                                                                        declassification.




                                                                     AUDIT REPORT 61701-0001-32          35
An agency shall notify ISCAP of any 75 FR 707, section 3.3;           Agency guidance does not include a
specific file series of records that falls and 32 CFR 2001.30(n)(5)   process for file series exemptions.
within one or more of the automatic
declassification exemption
categories.

Each agency shall publish in the          32 CFR 2001.33(a)           Agency mandatory declassification
Federal Register regulations                                          procedures were not published in the
concerning the handling of                                            Federal Register.
mandatory declassification.
          Self-Inspections

SAO shall report annually to the          75 FR 707, section          Agency guidance does not address the
Director of ISOO on the agency’s          5.4(d)(4); 32 CFR           external reporting of self-inspections.
self-inspection program. The report       2001.60(f)(2); and
shall include: description of the         32 CFR 2001.90(d)
agency’s self-inspection program;
assessment and a summary of the
findings; specific information
regarding the findings; the action
taken; and best practices (see
Finding 1).

Regular reviews of representative         32 CFR 2001.60(c)(2)        Agency guidance does not discuss
samples of the agency’s original and                                  reviewing representative samples of
derivative classification actions shall                               OCA and DCA documents and
encompass all agency activities that                                  corrections of misclassifications.
generate classified information.
     Reporting and Definitions

Each agency shall report annually to      32 CFR 2001.90(b)           Agency guidance does not address
the Director of ISOO statistics related                               statistical reporting.
to its security classification program.

Agencies shall report annually to the     32 CFR 2001.91(a), and      Agency guidance does not require a
Director of ISOO regarding security       32 CFR 2001.91(d)           report to the Director of ISOO regarding
violations and/or improper                                            security violations and/or improper
declassifications.                                                    declassifications.

Definitions as provided in the E.O.       75 FR 707, section 6.1;     Agency guidance does not include all
and CFR                                   and 32 CFR 2001.92          definitions in accordance with the EO
                                                                      and 32 CFR 2001.

An initial fundamental classification     32 CFR 2001.16(a)           Agency guidance does not address a
guidance review shall be completed                                    fundamental classification guidance
no later than June 27, 2012, and at                                   review.
least once every 5 years thereafter.




36      AUDIT REPORT 61701-0001-32
       Security Education
          and Training

The agency may grant a waiver of the   32 CFR 2001.71(c)(3),      Agency guidance does not cover the
training requirement due to            and 32 CFR 2001.71(d)(3)   waiver process for delays in training.
unavoidable circumstances. Waivers
shall be documented and training
should be taken as soon as
practicable.




                                                             AUDIT REPORT 61701-0001-32            37
38   AUDIT REPORT 61701-0001-32
Agency's Response 




                USDA’S
     OFFICE OF HOMELAND SECURITY
    AND EMERGENCY COORDINATION’S  
       RESPONSE TO AUDIT REPORT 




                      AUDIT REPORT 61701-0001-32   39
United States
Department of
Agriculture          September 19, 2013
Office of Homeland
Security and
Emergency
Coordination         Mr. Gil Hardin
1400 Independence
                     Assistant Inspector General for Audit
Avenue SW            Office of the Inspector General
Washington, DC
                     Washington, D.C. 20250
20250
                     Dear Mr. Hardin:

                     Thank you for your letter on August 5, 2013, regarding the Classification
                     Management Inspection Response for fiscal year 2013, Audit Number: 61701-0001-
                     32.

                     We have reviewed the official draft report on the subject audit. We appreciate the
                     opportunity to provide responses on the findings and the suggested
                     recommendations. We have included the proposed corrective actions to be
                     implemented, including timeframes for completion in the attachment.

                     Should you need clarification or additional information, please contact
                     Mr. Cody Allers, Chief, Personnel and Document Security Division at
                     (202)720-7373 or at cody.allers@dm.usda.gov.

                     Sincerely,


                     /S/

                     Todd H. Repass, Jr.
                     Director
                     Office of Homeland Security
                      and Emergency Coordination



                     Attachments
Attachment
Audit number -61701-0001-32 Response

Finding 1: Effectiveness of Security Program Management

    ·   Recommendation 1 to the Personnel and Document Security Division
        (PDSD)

        Establish a records management system to facilitate the release of
        information after declassification date.

        Agency Response, Corrective action:

        To ensure classified records are maintained OHSEC uses DR 3080-001 and
        E.O. 13526. The ISC will be made aware of their responsibility in maintaining a
        separate classified records management system to the extent possible. Training
        will be incorporated into the annual refresher and specific training for the ISC
        will enable the identification, preservation, and retirement of permanent records.
        The general awareness will be incorporated into the FY 2014 annual refresher
        training. ISC specific training will be developed and implemented in AgLearn
        for all ISC by the second quarter of 2014.

    ·   Recommendation 2 to PDSD

        Review all documents in which the declassification date has passed, in
        accordance with the “Mandatory Review for Declassification.”

        Agency Response, Corrective action:

        OHSEC will incorporate specific guidance into the ISC specific training that
        addresses the need to review all classified holdings for appropriate markings
        and control information by the end of the second quarter of FY2014. This
        training will include the proper marking elements to ensure all responsible
        understand the marking and control requirements.

    ·   Recommendation 3 to the Senior Agency Official (SAO)

        Dedicate the resources to expedite the process of ensuring the
        Departmental Regulation and Manual, DR 3440-001 and DM 3440-001,
        are updated to reflect Federal requirements (E.O. 13526 and 32 CFR 2001).

        Agency Response, Corrective action:

        OHSEC has identified the update of the DM 3440-001 as a critical priority for
        FY2014.




                                            1
Attachment
Audit number -61701-0001-32 Response

Finding 2: Effectiveness of Original Classification Authorities

    ·   Recommendation 4 to PDSD

        Update the classification guide to include a point of contact and specific
        date or event for declassification.

        Agency Response, Corrective action:

         OHSEC believes that further guidance from Information Security Oversight
        Office (ISOO) is required. OHSEC will provide ISOO’s guidance to OIG during
        the first quarter of FY2014.

    ·   Recommendation 5 to PDSD

        Develop and implement procedures to review and update the classification guide
        when regulatory changes occur to ensure future compliance.

        Agency Response, Corrective action:

        OHSEC will prepare a policy memorandum outlining the new procedures. The
        memorandum will be distributed by the end of the first quarter of FY2014.

Finding 3: Effectiveness of Original Classification Decisions and Dissemination
Control Marking Decisions

    ·   Recommendation 6 to the Original Classification Authority (OCA)

        Correct the markings on the two originally classified documents so that
        it is clear that the documents are original classifications, not derivative
        classifications.

        Agency Response, Corrective action:

        OHSEC will correct the markings by end of the first quarter of FY2014.


    ·   Recommendation 7 to PDSD

        Develop and implement a checklist to be used by the OCA, at the time of
        classification, to ensure that all originally classified documents include the
        required markings.

        Agency Response, Corrective Action:

        OHSEC will develop a checklist by end of the first quarter in FY2014.

                                             2
Attachment
Audit number -61701-0001-32 Response


Finding 4: Effectiveness of Derivative Classification Decisions and Dissemination
Control Marking Decisions.

    ·    Recommendation 8 to PDSD

         Develop and conduct specialized training for derivative classifiers that
         discusses the differences between working papers and finished documents and
         the marking requirements, as described in the regulation.

         Agency Response, Corrective action:

        OHSEC will deliver specialized training for Derivative Classifiers by the end
        of the second quarter of FY2014.

    ·    Recommendation 9 to PDSD

         Coordinate with the subordinate agencies to ensure that review of all USDA
         classified documents are maintained; and correct all improper markings
         identified, as needed.

         Agency Response, Corrective Action:

         OHSEC will lead a review process with all subordinate agencies to review and
         correct all USDA classified documents as needed by the end of FY2014.

Finding 5: Effectiveness of Security Self-Inspection Program

    ·    Recommendation 10 to the OCA
         Direct all subordinate agencies to schedule, conduct, and document self-
         inspections. The completed inspections should be submitted to the Personnel
         and Document Security Division (PDSD).

         Agency Response, Corrective Action:

         As answered in recommendation number 9 OHSEC will coordinate with
         subordinate agencies to schedule conduct and document self inspections by the
         end of FY2014.



    ·    Recommendation 11 to SAO
         Develop and implement procedures that require PDSD to report to the SAO on
         the completion of the subordinate agency self-inspections.

                                            3
Attachment
Audit number -61701-0001-32 Response


        Agency Response, Corrective Action:



        Currently, the SAO has provided a response through the required SF-311
        Reporting process. This process will be updated by end the first quarter FY2014
        to ensure all SF-311 reports are submitted to the SAO or their designee prior to
        being submitted to ISOO.

    ·   Recommendation 12 to OCA
        Develop and implement procedures that require the SAO to review and verify
        that the annual self-inspection report includes all required information, prior to
        submitting the report to the Information Security Oversight Office (ISOO).

        Agency Response, Corrective action:

        As identified in number 11 this process will be updated by the end of first quarter
        of FY2014.

Finding 6: Effectiveness of Security Reporting

    ·   Recommendation 13 to OCA
        Direct all subordinate agencies to provide required statistical information to
        PDSD annually to ensure accurate reporting to the Information Security
        Oversight Office (ISOO).

        Agency Response, Corrective Action:

        Additional direction will be provided to the subordinate agencies outlining the
        requirement to provide annual reporting by the end of the first quarter of
        FY2014.

    ·   Recommendation 14 to PDSD
        Develop procedures to fully document (including methodologies used for
        changing or estimating data) the statistical information used to support the
        annual report to the Information Security Oversight Office (ISOO).

        Agency Response, Corrective Action:

        OHSEC will develop procedures to document the information by the end of the
        second quarter of FY2014.



                                             4
Attachment
Audit number -61701-0001-32 Response

Finding 7: Effectiveness of Security Education and Training

    ·   Recommendation 15 to PDSD

        Develop, complete, and record computer-based training (AgLearn)
        that meets all the requirements for the original and derivative
        classification authorities.

        Agency Response, Corrective Action:

        OHSEC is currently updating the FY2014 computer base training and
        requirements will be met by the end of FY2014.

    ·   Recommendation 16 to PDSD

        Establish a tracking system to record and manage training completed outside of
        AgLearn for everyone with original or derivative classification authority.

        Agency Response, Corrective Action:

        USDA considers AgLearn the authoritative tool for providing training and
        education to its employees on a myriad of subject matter that is conducive to
        their personal and professional development. OHSEC utilizes this methodology
        to reach the estimated 3500 cleared staff within all of the agencies that comprise
        USDA and considers the completion reports that come from AgLearn as an
        authoritative document.

    ·   Recommendation 17 to PDSD

        Develop procedures that identify those original or derivative classification
        authorities who do not complete required training annually or biennially, as
        appropriate, and suspend those individual’s authorization to classify
        information, until training is completed.

        Agency Response

        OHSEC will recommend suspension for anyone who does not complete their
        training and who does not have approval for an exemption.




                                            5
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
